                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A11100071                                                                      Page 1 of 1



                                                                     1                       2
                 NSF OIG received an allegation that a PI (Subject 1) and Co-Pis (Subject 2 and Subject
         33) submitted an NSF proposal4 containing plagiarism. Our inquiry determined that nine of the
         13.5 pages ofthe Proposal's project description were almost entirely copied. We referred the
         matter to the Subject's University. 5

                 The University's investigation concluded, based on a preponderance of the evidence, that
         Subjects 1 and 2 intentionally, knowingly, and recklessly committed plagiarism, deemed a
         significant departure from accepted practices, and took actions to protect the University's
         interests.

                 We adopted the University's findings in part, but conducted our own investigation to
         further review the matter. Our investigation determined that Subject 2 intentionally and Subject 1
         knowingly committed plagiarism, and found that Subjects 1 and 2 exhibited a pattern of
         plagiarism. We recommended actions to be taken to protect the federal interest. The Senior
         Advisor to the Director concurred with our recommendations.

                Additionally, we sent Subject 3 a Questionable Practice Letter reminding him of his
         responsibilities regarding NSF proposals bearing his name.

                This memo, the attached Report of Investigation, and letters from the Senior Advisor to
         the Director constitute the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
SENSITIVE                                                                              SENSITIVE




      National Science Foundation
        Office of Inspector General




                                                                                                       ,   I




                  Report of Investigation
                 Case Number A11100071
                             March 27, 2013

                        This Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
 disclosed within NSF only to individuals who must have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. This report may be disclosed
 outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S. C. §§ 552 &
 552a. Please take appropriate precautions handling this report of investigation.

                                                                             NSF OIG Form 22b (1/13)
 SENSITIVE                                                                              SENSITIVE



                                     Executive Summary

Allegation:     Plagiarism.

OIG Inquiry:    OIG identified 12 sources from which approximately 229lines and four figures
                were copied into one NSF proposal. The copied text constituted approximately
                nine of the Proposal's 13.5 page project description. OIG referred investigation
                of the matter to the Subject's home institution.

University
Investigation
and Action:     The University concluded, based on a preponderance of the evidence, that
                Subjects 1 and 2 intentionally, knowingly, and recklessly committed plagiarism,
                deemed a departure from accepted practices. It concluded that Subject 3 did not
                commit plagiarism, but was careless in not identifying that material was
                improperly cited.

                The University required the Subjects to complete online training and attend a
                workshop on the responsible conduct of research. Subjects 1 and 2 were also
                assigned a mentor to assist them with grant proposals for at least three years.

OIG
Assessment:
                •   The Act: Subjects 1 and 2 plagiarized 229 lines and four figures into one
                    NSF proposal.
                •   Intent: Subject 2 acted intentionally; Subject 1 acted knowingly.
                •   Standard of Proof: A preponderance of evidence supports the conclusion
                    that the Subjects committed plagiarism.
                •   Significant Departure: The Subjects' plagiarism represents a significant
                    departure from accepted practices.
                •   Pattern: Plagiarism identified in a published article and a University
                    proposal.

OIG
Recommends:
                •   Make a finding of research misconduct against Subjects 1 and 2 .
                •   Send Subjects 1 and 2 a letter of reprimand.
                •   Debar Subjects 1 and 2 for a period of 1 year.
                •   Require certifications from Subjects 1 and 2 for a period of three years
                    following debarment period.
                •   Require assurances from Subjects 1 and 2 for a period of three years
                    following debarment period.
                •   Require certification of attending a comprehensive responsible conduct of
                    research training class within one year.
                •   Bar Subjects 1 and 2 from participating as a peer reviewer, advisor, or
                    consultant for NSF for a period of three years following debarment period.



                                               1
    SENSITIVE                                                                                              SENSITIVE


                                                   OIG's Inquiry

        OIG conducted an inquiry into an allegation that an NSF proposal (Proposal 1) contained
copied text. We reviewed the Proposal and found, as illustrated below, that 229 lines and four
figures, constituting nine of the 13.5 pages of the project description/ were almost entirely copied
from 12 sources 3 :

                       Source                                   Proposal
                       A (website)                              62lines
                       B (website)                              21 lines, 1 figure
                       c (website)                              35 lines, 2 figures
                       D (website)                              5lines
                       E (article)                              26 lines, 1 figure
                       F (product information)                  3lines
                       G (website)                              2lines
                       H (website)                              9lines
                       I (product inform~tion)                  45lines
                       J (website) ·                            4lines
                       K (article)                              6lines ·
                       L (article)                              11lines
                       Total                                    229 lines, 4 figures

The font size, font style, and spacing differed throughout the Proposal and the Proposal contained
textual inconsistencies and errors. For example, material from Source E, a two-column article,
appeared to be cut and pasted into the Proposal in such a way that it included a line from one
column, followed by a line from the other column, creating a nonsensical paragraph. 4 Additionally,
the Proposal's Works Cited section contained only nine sources, consisting of an incorrect
Wikipedia link,5 a copied embedded reference, Source L, and embedded references from Source L
that were not referenced in the Proposal. 6

       We contacted the Proposal's PI (Subject 1)7 and Co-Pis (Subject 2 8 and Subject 39)
regarding the allegations. 10 In their joint response, 11 the Subjects said "We do not consider any part




  Pages not containing plagiarism consisted of large figures with minimal text.
3
  Tab 2.
4
  Tab 1, pg 10-11.
5
  Reference 1 in the Words Cited section was http://en.wikipedia.org/wiki/L, a Wikipedia page about the letter L.
6
  Tab        20.
7




                                                           2
     SENSITIVE                                                                                SENSITIVE


of the proposal as an act of alleged plagiarism," 12 adding "we believe that we are the first who
proposed such_ set of projects for students' education and research at the sophomore level." 13 They
stated, "\Ve ab1.ee that ""We_ should exactly adh.ere to t.JSF r.J1es r~garding plagiarisms but v·ve also
believe that for our 2 years college we would like to improve 'undergraduate laboratories design
                              14
and research projects,'" noting "we would like to remind that the aim ofthe proposal is
                  15
pedagogical. _ ." The Subjects reviewed our annotations and argued the Proposal either included
references or included material that elsewhere appears uncited. Nonetheless, they said, "We
accepted that we sometimes have not given the complete set of references mainly due to technical
constrains" 16 and concluded:                                     ·

                   We feel that although we have had some oversights in referencing
                   other sources in our proposal, they have not been done intentionally.
                   We feel that they are due more to using a single reference multiple
                   times without explicitly stating so. The sources that were identified in
                   your letter to us have generic descriptions of the content that we use
                   in our proposal and differ sufficiently in technical details from our
                   proposal. For these reasons we did not consider them as references. 17

        We determined the response did not dispel the allegation. First, it provided contradictory
statements; though the Subjects state the Proposal does not contain plagiarism, they acknowledge
that portions were inappropriately cited Second, it contained inaccurate information; though the
Subjects state that the sources are referenced in the Proposal, their Works Cited section contains
nine references of which only three are directly connected to text in the proposal. Last, though the
Subjects argue that the allegedly copied text is technically constrained, the amount of copied
material makes this explanation implausible. Based on our inquiry, we concluded there was
sufficient evidence to proceed to an investigation.

                                               University Investigation

        Consistent with our policy, we referred the investigation to the University. 18 The
University, consistent with its policies, 19 convened a Committee, which produced a Report that it
provided to our office. 20 The Committee concluded, based on the preponderance of evidence, that
Subjects 1 and 2 "committed plagiarism as defined by NSF regulations and that this was performed
intentionally, knowingly, and recklessly." 21




12
   Tab 4, pg 1. All quoted material herein in sic.
13
   Tab 4, pg 1.
14
                          as
   Tab 4, pg 1. Emphasis in originaL
15
16
       4;
   Tab pg 1.
   Tab 4, pg 1.
17
   Tab 4, pg 7.
18
   Tab 5.
19
   Tab 6.
20
   Tab 7.
21
   Tab 7, Report, pg 10.


                                                          3
     SENSITIVE                                                                            SENSITIVE


        The Committee determined that Subject 2 drafted "all parts of the proposal which were
plagiarized" 22 and provided "incongruent" information during his interview. 23 It said that Subject 2
"freely admitted that he took materials from other sources, which he considered to be 'common
knowledge, , 24 but claimed he did not commit plagiarism because "plagiarism refers to using new
physical ideas without credit and does not refer to copying words describing old physical ideas."25
Subject 2 "asserted that his use of materials written by others is appropriate according to NSF rules
and according to his sense that a different standard for plagiarism applies to educational as opposed
to scientific proposals."26 He also said that using the words of others instead of his own language
"would make the proposal easier for the reviewer to read and so be beneficial,"27 and that "He spent
years developing the ideas for this proposal, why should he now spend additional months
formulating his own words for standards aspects of the proposaL ''28

        The Committee concluded "The clear evidence of extensive copying of source materials and
the admission by [Subject 2] that he has done this makes it clear that [he] committed plagiarism
intentionally and knowingly."29 It further "concluded that the plagiarism by [Subject 2] was
committed without careful examination of each act or its consequences even though this act falls
outside the boundaries of acceptable behavior within the physics community. In this regard, the act
of plagiarism was reckless." 30

        Regarding Subject 1, the Committee determined that he "reviewed and added to the proposal
after [Subject 2] completed the first draft" 31 and "was aware at some level that portions of the
proposal were copied and that sources were not cited appropriately." 32 It said Subject 1 "expressed
the view that the proposal was not plagiarized since there could be no concern of plagiarism in a
description ofan old and established experiment in physics" and "asserted that there is a difference
between a scientific proposal and an educational proposaL"33 He argued that "some of the sources
could not be properly quoted according to NSF guidelines on referencing since they are taken from




22
   Tab 7, Report, pg 10.
23
   Tab 7, Appendices, Appendix 11, pg 4.
24
   Tab 7, Report, pg 6.
25
   Tab 7, Report, pg 6.
26
   Tab 7, Report, pg 6.
27
   Tab 7, Report, pg 6.
28
   Tab 7, Appendices, Appendix 11, pg4.
29
   Tab 7, Report, pg 8.
30
   Tab 7, Report, pg 8.
31
   Tab 7, Report, pg 7.
32
   Tab 7, Report, pg 10.
33
   Tab 7,Report, pg 7.


                                                  4
     SENSITIVE                                                                                            SENSITIVE


                                                                                34
         the web or from manuals and do not have page numbers" and even "cit[ ed] examples from
history where there was plagiarism to support his claim that the proposal does not contain evidence
of plagia..rism: [such as] 'Einstein published his paper and potentially plagiari_zed from others __ ..his
                                35
work is not totally originaL "'

          The Committee concluded Subject 1 acted intentionally and knowingly because:

                  According to [Subject 1], he was deeply involved in reviewing the
                  proposal after the first draft_ In addition, it was clear to the
                  Committee from his responses during the interview that the
                  question of proper use of language seemed to be as much on his
                                                   36
                  mind as it was for [Subject 2]-

It also found that Subject 1 acted recklessly, because he "did not carefully consider the consequence
of his actions acted without regard for the strongly held conviction within the research community
                                    37
that plagiarism is not acceptable."

       The Committee determined Subjects 1 and 2's actions constituted a significant departure
from accepted practices in its research community. It wrote:

                  The community recognizes that taking material from others
                  without attribution is plagiarism and recognizes no distinction in
                  this regard between scientific and educational proposals. Further
                  the extent of the plagiarism in this proposal makes this case an
                                                            .     38
                  even greater departure from accepted practices.

        Conversely, the Committee concluded that Subject 3 "did not commit plagiarism
intentionally or knowingly," but rather "was careless not to have noticed departures from standard
                                                 39
practice in the referencing within the proposal." It added that:


34
  Tab 7, Report, pg 7. The Subjects provide an Analysis ofNSF Sources (Tab 7, Appendices, Appendix 12). In it, they
argued that five DIG-identified online sources were themselves not able to be referenced according to NSF's rules, as
they did not contain all ofNSF's required elements for referencing. For example, regarding Source A, they wrote:

         According to NSF rules "in providing citations for source materials relied upon when
         preparing any section of the proposaL (Reference GPG Chapter ILC.2.e) e. References
         Cited". Each reference must include the names of all authors (in the same ·sequence in
         which they appear in the publication), the article and journal title, book title, volume
         number, page numbers, and year of publication. If the document is available
         electronically, the website address also should be identified"_ This reference is not valid
         according to NSF rnles.

We note that the Subjects made this argument despite their Works Cited section including a non-paginated, author-
unidentified (and incorrect link to a) Wikipedia page_
35
   Tab 7, Appendices, Appendix 11, pg 5.
36
   Tab 7, Report, pg 8.
37
   Tab 7, Report, pg 9
38
   Tab 7, Report, pg 8.
39
   Tab 7, Report, pg 10.


                                                            5
     SENSITIVE                                                                                           SENSITIVE



                  His endorsement ofthe response to January 6, 2012 NSF letter
                  denying plagiarism, after extensive copying without proper citation
                  was pointed out, represents a reckless disregard for standard
                  practices and accepted definitions of plagiarism. 40

        Subject 3 told the Committee that "he did not contribute to the narrative portion of the grant
and did not review this portion of the proposal," but that he contributed "issues of pedagogy and
intellectual merit, firmed up the budget narrative and liaisoned with [Subject 1] and the grant
office."41 He said that "upon receipt of NSF's letter to him, dated January 6, 2012, he did not
review the citations and relied on his Co-Pis even though the letter clearly outlined the extensive
copying that took place."42 However, he said "he now believes that plagiarism was committed in
writing the proposal and expressed regret that he so completely trusted his Co-Pis who were more
expert in the subject matter of the proposal than he.'A 3

        The Committee examined other publications by the Subjects. 44 It found that the abstracts
and introductions of a University proposal, on which Subject 2 was PI and Subject 1 was Co-PI,
contained a few sentences that "were copied without being cited ,,4s It concluded there were
"previous instances of plagiarism, although not as egregious as in the NSF proposal."46

        The Committee also reviewed whether the Subjects had taken responsible conduct of
research training, ahd found they had not because "at the time the proposal was submitted such
training was voluntary." 47 It noted however that, as of August 1, 2012, "all faculty and students
engaged in research at the University are required to complete online training in the responsible
conduct of research." 48 '

         Lastly, regarding whether the Subjects' actions had a significant impact on the research
community, the Committee determined that the Proposal "may have had an unfair advantage over
proposals submitted by others who wrote their proposals using their own words."49 It added that
"the disregard for accepted standards regarding plagiarism has the effect of encouraging laxness at
all levels of the scientific enterprise. " 50

                                  Subject Responses to University Report

       The University provided the Subjects with the Report for comment, and Subjects 1 and 2
provided responses. In his response, Subject 2 stated:


40
   Tab 7, Report, pg 10.
41
   Tab 7, Report, pg 5.
42
   Tab 7, Report, pg 6.
43
   Tab 7, Report, pg 6.
44
   Tab 7, Appendices, Appendix 9. Specifically, the Committee reviewed one publication from Subject 1, three
publications from Subject 2, two publications from Subject 3, and two University proposals from Subjects 1 and 2.
45
   Tab 7, Report, pg 9.
46
   Tab 7, Report, pg 9.
47
   Tab 7, Report, pg 10.
48
   Tab 7, Report, pg9-10.
49
   Tab 7, Report, pg 9
50
   Tab 7, Report, pg 9.


                                                          6
     SENSITIVE                                                                                              SENSITIVE




                    I agree and a~cept that at the time of writing this NSF proposal, I
                   haT1e copied Vv'"ords h"'l some cases with references in some cases
                   without appropriate references (without intent to break any rules or
                   regulations), because I have used common descriptions of well-
                   known experiments and at that time I did not know that such action
                   is classified as plagiarism. 51

 He concluded that "after the initial contact with NSF and when I have read and studied the NSF
 regulations and papers defining plagiarism, I agree and accept that my understanding of plagiarism
 was wrong and unacceptable in the academic and scientific community." 52

           Subject 1,53 in his response, said he disagreed with the University's finding "simply because
 I did not write (the Proposa1]."54 He argued that "The decision for me to be PI of the project was
 completely' gentlemen', since [Subject 3] is a chair of the Department, and, hence, was extremely
·busy. " 55 He added "I also have heard from members of Committee that they believe that I belong
 to a 'different culture', where apparently rules of honesty are different even though my PH.D. is
 from this country." 56 Despite acknowledging "that we have been careless and not rigorous enough
 in our researching to provide adequate citations," he reiterated that "We did provide citations to all
 sources, but did not repeat them in all places" and that "we have found at least two similar passages
 in general literature which, according to NSF rules as I understood, does not qualify as being the act
 ofplagiarism."57 He concluded:

                  I now understand the definition of plagiarism as defined by NSF
                  and [the University]. From now on I will be very careful and
                  diligent to follow closely rules and regulations, regarding proposal
                  applications. 58

                                             University Adjudication

       Based on its finding, the University required that Subjects 1, 2, and 3 complete online
Responsible Conduct of Research (RCR) training and attend an RCR workshop, and provide the
University documentation of completion. Additionally, the University assigned Subjects 1 and 2 a
mentor to assist with future internal and external grant proposals for at least three years. 59



51
   Tab 7, Subject 2 Response.
52
   Tab 7, Subject 2 Response.
53
   Subject I, in his response, said: "When I called to NSF agent for additional explanation, she advised me 'not to write
a lot' in response. In our response to NSF we focused on our adherence to NSF rules about similar descriptive language
and did not elaborate due to this advice" (Tab 7, Subject 1 Response, pg 1). We dispute this account. As with all
subjects, we instructed Subject 1 to provide as much information as he wanted to present his side of the story.
54
   Tab 7, Subject I Response, pg L
55
   Tab 7, Subject 1 Response, pg L
56
   Tab 7, Subject I Response, pg L
57
   Tab 7, Subject 1 Response, pg L
58
   Tab 7, Subject 1 Response, pg 2.
59
   Tab 8.


                                                           7
     SENSITIVE                                                                                           SENSITIVE



                          OIG's Assessment of the University Investigation Report

       OIG invited the Subjects' comments 60 on the University Report, however they chose not to
respond.

        OIG assessed the Report for accuracy and completeness, and did not find the Report to be
either fully accurate or complete. Specifically, the Report was inaccurate in its assessment of
pattern, and was incomplete in failing to identify the standards of the Subjects' research community
and in assessing the Subjects' specific levels of intent. The University however did follow
reasonable procedures in conducting its investigation, and produced an acceptable evidentiary
record with respect to the matters it did address. We therefore adopted the findings in part, but could
not accept the report in its totality in lieu of conducting our own investigation.

        One finding we adopted was the University's determination regarding Subject 3. Based on
the Subjects' statements, we concurred that Subject 3 did not himself commit plagiarism, but rather
acted carelessly in attaching his name to a Proposal without adequately reviewing the document.
We further found that Subject 3 acted extremely recklessly in attaching his name to a federal
inquiry response without so much as even reviewing the allegation or response. This act however
does not constitute research misconduct and Subject 3 is removed from further review.

                                                 OIG's Investigation

        Upon further review of documents, we identified a more significant pattern of plagiarism. 61
Specifically, we identified a publication Subjects 1 and 2 co-authored62 containing 34lines and 10
embedded references copied from three sources, 63 and found that Subjects 1 and 2 had copied
almost all ofthis same text in their Universityproposal. 64 We concluded that Subjects 1 and 2
committed plagiarism not just in an educational proposal, but also in a published scientific paper,
directly contradicting their repeated statements of being more conscientious when writing
'scientific' materials.

       We examined the ethical guidelines of the Subjects' leading professional association; 65
Subject 1 authors material for the association's joumals66 and Subject 2 routinely presents at an
association-sponsored conference. 67 The association's website and journal guidelines68 include
"Guidelines for Professional Conduct" that state "Plagiarism constitutes unethical scientific
behavior and is never acceptable"69 and that provide links to other relevant professional conduct


60Tab 9 ..
61
  Our review of the Report found that the Committee appropriately assessed the plagiarism detection software reports,
but did not remove from the       · works the    ·ects themselves authored and re-run the


   Tab 10 contains the article and sources, with identical text highlighted.
64
   Our review identified copied text therein that the Committee had not noted.
65
   American                ·




                                                           8
     SENSITIVE                                                                             SENSITIVE


 statements. The association also has "Policies for Handling Allegations of Research Misconduct" 70
 and materials focusing on ethics case studies and training. 71 Subjects 1 and 2 thereby violated the
 accepted practices of the rele·vant research com...TTIUPity by not properly ac!rJlo\x;ledging others'
 contributions intheir Proposal.

         We ne:x:t examined the Subjects' specific levels of intent. The Report stated that Subjects 1
and 2 acted intentionally, knowingly, and recklessly, which it based on the Subjects' own
statements regarding Proposal preparation. 72 It did not however explaill how it concluded the
subjects actions were committed at multiple levels of intent. We reviewed their educational and
professional history, as described in their Biographical Sketches. 73 We determined both Subjects 1
and 2 had adequate experience in the U.S. academic environment. Although Subject 1 received his
bachelors and masters degrees outside the U.S./ 4 he received his Ph.D. from a U.S. institution. 75
Similarly, though Subject 2 received his undergraduate and graduate education outside the U.S., 76
all of his academic appointments were held in the U.S. 77 Additionally, both Subjects author
publications in English language, U.S.-basedjoumals and present at conferences; Subject 2 has
even filed patents with the U.S. Patent and Trademark Office. 78 Given their educational and
professional experience, Subjects 1 and 2 reasonably knew what constituted adequate attribution of
other author's text.

         We reviewed the Subjects' statements to the Committee. We noted that Subject 2
acknowledged his belief that using others' text would positively facilitate reviewer
comprehension. 79 We further noted his rather bold statement: "He spent years developing the ideas
for this proposal, why should he now spend additional months formulating his own words for
standards aspects of the proposal."80 His statements strongly suggest that he made a conscious
decision to improve his proposal and simplify the process by copying others' works. Based on his
statements and the extent of copied text, we conclude Subject 2 acted intentionally in plagiarizing
what amounted to more than half of the Proposal's project description.

        Subject 1, in his statements, contested the Committee's assessment regarding intent stating
that he himself did not write the Proposal, but rather allowed Subject 2 to assign him as PI as a
kindness. The Report however, based on the Subject's statements, determined that he reviewed and
revised the Proposal before submission. It concluded that Subject 1 was directly involved in the
Proposal's composition, unlike Subject 3 who "did not contribute to the narrative portion of the
grant and did not review this portion of the proposal."81 Additionally, though perhaps a kindness,
Subject 1 was named PI on a proposal requesting federal funds; doing so brings with it


70
   http://www.aps.org/policy/statements/02_3 .din.
71
   http://www.aps.org/programs/educationlethics/index.cfm.
72
   Tab 11.
73
   Tab I




78
   Tab 1, pg 24.
79
   Tab 7, Report, pg 6.
80
   Tab 7, Appendices, Appendix 11, pg 4.
81
   Tab 7, Report, pg 5.


                                                         9
     SENSITIVE                                                                             SENSITIVE



  responsibilities. We conclude Subject 1 acted knowing! y in submitting a Proposal on which he was
· named PI that contained extensive and blatant plagiarism.

                                           OIG's Assessment

        A finding of research misconduct by NSF requires (1) there be a significant departure from
accepted practices of the relevant research community, (2) the research misconduct be committed
intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a preponderance of
the evidence. 82

                                                 The Acts

        The University concluded that Subjects 1 and 2 plagiarized 229 lines and four figures into
one declined NSF proposaL The plagiarized text constituted nine of the Proposal's 13.5 page project
description. OIG concurs with the Report that the Subjects' actions constitute plagiarism.

        The Report found the Subjects' acts constituted a significant departure from accepted
practices, but did not adequately identify accepted practices. Our investigation determined the
subjects actions deviated from accepted standards within their research discipline and conclude that
the acts did indeed constitute a significant departure.



        The University's Report was ambiguous regarding level of intent, determining Subjects 1
and 2 both acted intentionally, knowingly, and recklessly. Based on the Subjects' professional
background and our investigatory review, as described above, we conclude that Subject 2
intentionally and Subject 1 knowingly copied extensive material into the ProposaL


                                            Standard o(Proo(

        OIG concludes that the Subjects' actions and intent were proven based on a prepondeJ.:ance
of the evidence.

           OIG concludes by a preponderance of the evidence, that Subject 2 intentionally and Subject
                                                                              83
1 knowingly plagiarized, thereby committing an act of research misconduct.

                                   OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:
             (1) How serious the misconduct was; (2) The degree to which the
             misconduct was knowing, intentional, or reckless; (3) Whether it was
             an isolated event or part of a pattern; (4) Whether it had a significant

82
      45 C.F.R. §689.2(c).
83
     45 C.F.R. part 689.


                                                   10
     SENSITIVE                                                                                 SENSITIVE



                     impact on the research record, research subjects, other researchers,
                     institutions or the public welfare; and (5) Other relevant
                     circu...1Jlstances. 84

                                                  Seriousness

       The Subjects' actions are a serious violation ofthe standards of scholarship and the tenets of
general research ethics. The Proposal they submitted to NSF in an attempt to receive federal funds
was almost entirely copied from other's works. Copied text serves to misrepresent one's body of
knowledge, presenting reviewers with an inaccurate representation of a proposal's respective merit
Furthermore, the seriousness is compounded by the fact that neither Subject understood the
seriousness of the matter during the inquiry process nor even now seeming!y understand
appropriate citation practices regarding educational proposals.

                                                    Pattern

        The Report concluded that Subjects 1 and 2 copied material into a University proposal,
constituting a pattern of plagiarism. Our review however compounded a finding of pattern in
identifYing plagiarism in a published scientific article that Subjects 1 and 2 authored. This fmding
directly contradicts their assertion that they believed the act of using others' text is unacceptable in
scientific materials, while acceptable in education proposals.

                                             Aggravating Factor

        Though the fact pattern clearly warrants debarment for Subject 2, we conclude that Subject
1's actions also warrant debarment. First, throughout the process, Subject 1 never accepts the
inherent responsibility of being named PI on a federal grant proposal. Second, during the
investigation, Subject 1 demonstrated a continued misunderstanding ofNSF's referencing
guidelines, .in his assertion that the sources we identified were themselves not able to be referenced
according to NSF's rules. Last, Subject 1, in his response to the University's Report, continues to
inc~rr~ctl_y a~sert that "we did provide citati?ns to all s~urce~, but did not rep~at them in all flaces,"
agam mdicatmg he does not understand the Import of his actiOns and preventmg recurrence. 5 We
conclude that Subject 1 's actions warrant a one-year debarment.




84
     45 C.F.R. § 689.3(b).
85
     Tab 7, Subject 1 Response, pg 1.


                                                      11
     SENSITIVE                                                                          SENSITIVE




                                                   Recommendation

Based on the evidence, OIG recommends that NSF:
       • Send Subjects 1 and 2 a letter of reprimand notifying them that NSF has made a fmding
           of research misconduct. 86
       • Require Subjects 1 and 2 to certify their compliance with the requirements imposed by
          the University as a result of its investigation.
       • Require Subjects 1 and 2 to certify to the Assistant Inspector General for Investigations
           (AlGI) their completion of a responsible conduct of research training program and
          provide documentation of the program's content within 1 year ofNSF's finding. 87 The
          instruction should be in an interactive format (e.g., an instructor-led course) and
          specifically include information regarding plagiarism and appropriate citation practices.
                                               88
       • Debar Subjects 1 and 2 for 1 year.

OIG further recommends that for a period of 3 years immediately following the debarment period,
NSF:
      • Bar Subjects 1 and 2 from participating as a peer reviewer, advisor, or consultant for
          NSF. 89
      • Require for each document (proposal, report, etc.) to which Subjects 1 and 2 contribute
          for submission to NSF (directly or through their institution),
              o the Subject to submit a contemporaneous certification to the AlGI that the
                  document does not contain plagiarism, falsification, or fabrication. 90
              o the Subject to submit contemporaneous assurances from a responsible official of
                  their employer to the AlGI that the document does not contain plagiarism,
                  falsification, or fabrication. 91




86
   A Group I action 45 C.P.R. 689.3(a)(l)(i).
87
   Tbis action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
88
   A Group III action 45 C.F.R. 689.3(a)(3)(iii).
89
   A Group III action 45 C.F.R. 689.3(a)(3)(ii).
90
   Tbis action is similar to 45 C.F.R. 689.3(a)(l)(iii).
91
   A Group I action 45 C.F.R. 689.3(a)(l)(iii).


                                                            12
                                      NATIONAL SCIENCE FOUNDATION
                                          4201 WILSON BOULEVARD
                                         ARLINGTON, VIRGINIA 22230




        OFFICE OF THE
       DEPUTY DIRECTOR
                                                                                   -
   CERTIFIED MAIL --RETURN RECEIPT REQUESTED




           Re: Notice of Proposed Debarment and Notice of Research Misconduct Determination

   DearD~

   You served as a Co-Principal Investigator on a mcmo·sa1
   Science Foundation (NSF) entitled,

                          As documented in the attached investigative report prepared by NSF's
   Office of Inspector General ("OIG"), your proposal contained plagiarized material.

   In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
   from directly or indirectly obtaining the benefits of Federal grants for one year. During your
   period of debarment, you will be precluded from receiving Federal financial. and non-financial
   assistance and benefits under non-procurement Federal programs and activities. In addition, you
   will be prohibited from receiving any Federal contracts or approved subcontracts under the
   Federal Acquisition Regulations ("FAR"). Lastly, during your debarment period, you will be
   barred from having supervisory responsibility, primary management, substantive control over, or
   critical influence on, a grant, contract, or cooperative agreement with any agency of the
   Executive Branch of the Federal Government.

     In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer,
     advisor, or consultant to NSF u n t i l - 2016. Furthermore, for three years from the
     expiration of your debarment period, I am requiring that you submit certifications, and that a
     responsible official of your employer submit assurances, that any proposals or reports you submit
     to NSF do not contain plagiarized, falsified, or fabricated material. Lastly, you must complete a
     comprehensive responsible conduct of research training course b y - 2014, and provide
     documentation of the program's content to the OIG. The instruction should be in an interactive
     format (e.g., an instructor-led course, workshop, etc.) and should include a discussion of
_ ___p~giru:~:n?: an~-r~~p~r citation practices.
                                                                                             Page 2
Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... , 4 5 CFR § 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.l(a)(3). A finding of research misconduct
requires that:

        (1) There be a significant departure from accepted practices of the relevant research
            community; and
        (2) The research misconduct be--committed intentionally ,-Of- knowingl¥,-OLrecklessl¥;-
            and
        (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689 .2(c).

 Your proposal contained 229 lines of copied text and four copied figures from 12 sources. By
 submitting a proposal to NSF that copied the ideas or words of another without adequate
 attribution, as described in the OIG investigative report, you misrepresented someone else's
work as your own. Your conduct unquestionably constitutes plagiarism. I therefore conclude
that your actions meet the applicable definition of"research misconduct" set forth in NSF's
_regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
misconduct based on a preponderance of the evidence. 45 CFR § 689 .2( c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
plagiarism was committed intentionally and constituted a significant departure from accepted
practices of the relevant research community. I am, therefore, issuing a finding of research
misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a finding of misconduct 45 CFR § 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR §689.3(a)(l). Group II
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR §689.3(a)(2). Group III actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).
                                                                                               Page3

In detennining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct, and our determination that it was committed intentionally. I
have also considered the fact that your misconduct was not an isolated incident. In addition, I
have considered other relevant circumstances. 45 CFR § 689.3(b).

After assessing the relevant facts and circumstances of this case, I am imposing the following
actions on you:

   •      For three years from the end of your debarment period, you are required to submit
          certifications that any proposals or reports you submit to NSF do not contain plagiarized,
        . falsified, or fabricated material.                   .         .        .. -    --- -.. -

   •     For three years from the end of your debarment period, you are required to submit
         assurances by a responsible official of your employer that any proposals or reports you
         submit to NSF do not contain plagiarized, falsified, or fabricated material.

   •     From the date of this letter t h r o u g h - 2016, you are prohibited from serving as
         an NSF reviewer, advisor, or consultant.

   •     You are required to complete a comprehensive responsible conduct of research training
         course b y - 2014, and provide documentation of the program's content to the
         OIG. The instruction should be in an interactive format (e.g., an instructor-led course,
         workshop, etc.) and should include a discussion of plagiarism and proper citation
         practices.

    •                      to certify compliance with the requirements imposed by t h e -
                                  a result of its investigation regarding your misconduct.

All certifications, assurances, and training documentation should be submitted in writing to
NSF's Office oflnspector General, Associate Inspector General for Investigations, 4201 Wilson
Boulevard, Arlington, Virginia 22230.

Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

          (b) Violation of the terms of a public agreement or transaction so serious as to affect the
          integrity of any agency program, such as -
                                                                                                    Page4
                  (3) A willful violation of a statutory or regulatory provision or requirement
                 applicable to a public agreement or transaction; or

                 ***
         (d)     Any other cause of so serious or compelling a nature that it affects your present
                 responsibility.

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you prepared and intentionally
subJ:P:i!fed a propos~!_t~_N_Sf' c~I1!a!ning plagiarized material~ aJ1d)'()U do no!apQ_e~r_!o_ appJ:~c!_ate _
the import of your actions. Moreover, the plagiarism in the NSF proposal was not an isolated
incident, as plagiarized material was also identified in a University proposal, as well as a
published scientific article. Based on the foregoing, it appears you lack present responsibility for
managing Federal funds. Thus, your action supports a cause for debarment under 2 CFR
180.800(b)(3) and 180.800(d).


Length ofDebarment

Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Having considered the seriousness of your
actions, as well as the relevant aggravating and mitigating factors set forth in2 CFR 180.860, I
am proposing your debarment for one year.


Appeal Procedures for Finding of Research Misconduct and Procedures Governing
Proposed Debarment

Appeal Procedures for Finding of Research Misconduct

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
decision on the finding of research misconduct will become finaL For your information, I am
attaching a copy of the applicable regulations.

Procedures Governing Proposed Debarment

The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under NSF regulations, you have 30 days after receipt of this notice to submit,
                                                                                         Page 5
in person or in writing, or through a representative, information and argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision of the recommended disposition. IfNSF does not
receive a response to this notice within the 30-day     ·od, this debarment will become final.
Any response should be addressed to                          General Counsel, National Science
Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
on non-procurement debarment and FAR Subpart 9.4.

Should you have any questions about the foregoing, please c o n t a c t - Assistant
G~!ler_al Courls~l,at(703)29~-



                                                   Sincerely,


                                                   . . . _/y               I
                                                         ./'1. ._..,. ..-r:r   ------
                                                                               ~
                                              c~~~-u-L~
                                                   Fae Korsmo
                                                   Senior Advisor



Enclosures:
Investigative Report
Nonprocurement Debarment Regulations
FAR Regulations
45 CFR Part 689
                                       NATIONAL SCIENCE FOUNDATION
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR
                                                                                -
CERTIFIED MAIL --RETURN RECEIPT REQUESTED




        Re: Notice of Proposed Debarment and Notice of Research Misconduct Determination

Dear D r . -

You served as a Principal Investigator on a ......,....."""'
Science Foundation

                      As documented in the attached investigative report prepared by NSF's
Office oflnspector General ("OIG"), your proposal contained plagiarized material.

In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
from directly or indirectly obtaining the benefits of Federal grants for one year. During your
period of debarment, you will be precluded from receiving Federal financial and non-financial
assistance and benefits under non-procurement Federal programs and activities. In addition, you
will be prohibited from receiving any Federal contracts or approved subcontracts under the
Federal Acquisition Regulations ("FAR"). Lastly, during your debarment period, you will be
barred from having supervisory responsibility, primary management, substantive control over, or
critical influence on, a grant, contract, or cooperative agreement with any agency of the
Executive Branch of the Federal Government

In addition to proposing your debarment, I am prohibiting you from serving as an NSF reviewer,
advisor, or consultant to NSF u n t i l - 2016. Furthermore, for three years from the
expiration of your debarment period, I am requiring that you submit certifications, and that a
responsible official of your employer submit assurances, that any proposals or reports you submit
to NSF do not contain plagiarized, falsified, or fabricated material. Lastly, you must complete a
comprehensive responsible conduct of research training course b y - 2014, and provide
documentation of the program's content to the OIG. The instruction should be in an interactive
format (e.g., an instructor-led course, workshop, etc.) and should include a discussion of
plagiarism and proper citation practices.
                          --:                                                                         --. i




                                                                                            Page2
Research Misconduct and Sanctions other than Debarment

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
plagiarism in proposing or performing research funded by NSF ... " 45 CFR § G89.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate creqit." 45 CFR § 689.l(a)(3). A finding of research misconduct
requires that:

        (1) There be a significant departure from accepted practices of the relevant research
            community; and
       (2) The research misconduct be committed intentionally, or knowingly, or re_cklessl)'; _
           and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

Your proposal contained 229 lines of copied text and four copied figures from 12 sources. By
submitting a proposal to NSF that copied the ideas or words of another without adequate
attribution, as described in the OIG investigative report, you misrepresented someone else's
work as your own. Your conduct unquestionably constitutes plagiarism. I therefore conclude
that your actions meet the applicable defmition of "research misconduct" set forth in NSF's
regulations.

Pursuant to NSF's regulations, the Foundation must also determine whether to make a finding of
misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
plagiarism was committed knowingly and constituted a significant departure from accepted
practices of the relevant research community. I am, therefore, issuing a finding of research
misconduct against you.

NSF's regulations establish three categories of actions (Group I, II, and III) that can be taken in
response to a findingofmisconduct. 45 CFR § 689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities from NSF; requiring
that an institution or individual obtain special prior approval of particular activities from NSF;
and requiring that an institutional representative certify as to the accuracy of reports or
certifications of compliance with particular requirements. 45 CFR §689.3(a)(l). Group II
actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR §689.3(a)(2). Group III actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousness of the misconduct, and our determination that it was committed knowingly. I
                                                                                                Page 3
have also considered the fact that your misconduct was not an isolated incident. In addition, I
have considered other relevant circumstances. 45 CFR § 689.3(b).

After assessing the relevant facts and circumstances of this case, I am imposing the following
actions on you:

   •   For three years from the end of your debarment period, you are required to submit
       certifications that any proposals or reports you submit to NSF do not contain plagiarized,
       falsified, or fabricated material.

   •    For three years from the end of your debarment period, you are required to submit
       -assurances by aresponsible- official of your employer that any-proposals or-reports-you
        submit to NSF do not contain plagiarized, falsified, or fabricated materiaL

   •   From the date of this letter t h r o u g h - 2016, you are prohibited from serving as
       an NSF reviewer, advisor, or consultant.

   •   You are required to complete a comprehensive responsible conduct of research training
       course b y - 2014, and provide documentation of the program's content to the
       OIG. The instruction should be in an interactive format (e.g., an instructor-led course,
       workshop; etc.) and should include a discussion of plagiarism and proper citation
       practices.

   •                     to certify compliance with the requirements imposed by t h e -
                             as a result of its investigation regarding your misconduct.

All certifications, assurances, and training documentation should be submitted in writing to
NSF's Office of Inspector General, Associate Inspector General for Investigations, 4201 Wilson
Boulevard, Arlington, Virginia 22230.

Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:

       (b) Violation of the terms of a public agreement or transaction so serious as to affect the
       integrity of any agency program, such as -

                (3) A willful violation of a statutory or regulatory provision or requirement
               applicable to a public agreement or transaction; or

               ***

                                                                                       -------------
                                                                                                   Page4
              (d)    Any other cause of so serious or compelling a nature that it affects your present
                     responsibility.

      In any debarment action, the government must establish the cause for debarment by a
      preponderance of the evidence. 2 CFR 180.850. In this case, you knowingly submitted a
      proposal to NSF containing plagiarized material, and you do not appear to appreciate the import
      of your actions. Moreover, the plagiarism in the NSF proposal was not an isolated incident, as
      plagiarized material was also identified in a University proposal, as well as a published scientific
      article. In addition, your responses to the University's report suggest that, because of your lack
      of understanding ofNSF's referencing guidelines, you might repeat the same misconduct in
      other proposals submitted for Federal funding. Based on the foregoing, it appears you lack
      present responsioilicyfor managing Federal funds. Thus, your action supports-a cause for
      debarment under 2 CFR 180.800(b)(3) and 180.800(d).


      Length of Debarment

      Debarment must be for a period commensurate with the seriousness of the causes upon which an
      individual's debarment is based. 2 CFR 180.865. Having considered the seriousness of your
      actions, as well as the relevant aggravating and mitigating factors set forth in 2 CFR 180.860, I
      am proposing your debarment for one year.


     Appeal Procedures for Finding of Research Misconduct and Procedures Governing
     Proposed Debarment

     Appeal Procedures for Finding of Research Misconduct

     Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
     fmding, in writing,. to the Director ofthe Foundation. 45 CFR 689.10(a). Any appeal should be
     addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
     Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, the
     decision on the finding of research misconduct will become final. For your information, I am.
     attaching a copy of the applicable regulations.

     Procedures Governing Proposed Debarment

     The provisions of2 CFR Sections 180.800 through 180.885 govern debarment procedures and
     decision-making. Under NSF regulations, you have 30 days after receipt of this notice to submit,
     in person or in writing, or through a representative, information and argument in opposition to
     this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
     consideration andmay lead to a revision of the recommended disposition. IfNSF does not
     receive a response to this notice within the 30-day     ·   this debarment will become final.
     Any response should be addressed to                         General Counsel, National Science
     Foundation, Office of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
-----····----                                                                                     ·---·----
                                                                                           Page 5
. Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations
  on non-procurement debarment and FAR Subpart 9.4.

 Should you have any questions about the foregoing, please c o n t a c t - Assistant
 General Counsel, at (703) 292-   .


                                                     Sincerely,



                                                /~                                  ..


                                                     Fae Korsmo
                                                     Senior Advisor



 Enclosures:
 Investigative Report
 Nonprocurement Debarment Regulations
 FAR Regulations
 45 CFR Part 689




       ------·-----···              ----
                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR
                                                                                  -
VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




       Re: Notice of Debarment


Dear D r . -

O n - 2013, the National Science Foundation ("NSF") issued to you a Notice of
Proposed Debarment and Notice of Research Misconduct Determination ("Notice"), in which
NSF proposed to debar you from directly or indirectly obtaining the benefits of Federal grants
for a period of one year. As reflected in the Notice, NSF proposed your debarment for
submitting a proposal to NSF that contained plagiarized material. In that Notice, NSF provided
you with thirty days to respond to the proposed debarment.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred u n t i l - 2014.

Debarment precludes you from receiving Federal financial and non-financial assistance and
benefits under non-procurement Federal programs and activities unless an agency head or
authorized designee makes a determination to grant an exception in accordance with 2 CFR
180.13 5. Non-procurement transactions include grants, cooperative agreements, scholarships,
fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for
specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of this debarment. 2
CFR 180.925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency of the Executive Branch of the Federal Government.
                                                                                             - 2 -

Lastly, please note that, in the Notice, NSF also took the following actions against you, wliich
continue to remain in effect:

   •   From the end of your debarment period                        2017, you are required to
       submit certifications to NSF's Office of Inspector General that any proposals or reports
       you submit to NSF do not contain plagiarized, falsified, or fabricated materiaL

   •   From the end of your debarment period through-2017, you are required to
       submit assurances by a responsible official of your employer that any proposals or reports
       you submit to NSF do not contain plagiarized, falsified, or fabricated material. These
       assurances must be submitted to NSF's Office of Inspector GeneraL

   •   You are prohibited from serving as an NSF reviewer, advisor, or consultant through
       -2016;and

   •   You are required to complete a comprehensive responsible conduct of research training
       course b y - 2 0 1 4 , and provide documentation of the program's content to the
       OIG. The instruction should be in an interactive format (e.g., an instructor-led course,
       workshop, etc.) and should include a discussion of plagiarism and proper citation
       practices.

All certifications, assurances, and training documentation should be submitted in writing to
NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
VA 22230.

Should you have any questions regarding the foregoing, please                         Assistant
General Counsel, at (703) 292-8060.




                                                     Sincerely,



                                                     Fae Korsmo
                                                     Senior Advisor
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR
                                                                               -
VIA CERTIFIED MAIL/RETURN RECEIPT REQUESTED




       Re: Notice of Debarment


Dear D r . -

O n - 2013, the National Science Foundation ("NSF") issued to you a Notice of
Proposed Debarment and Notice of Research Misconduct Determination ("Notice"), in which
NSF proposed to debar you from directly or indirectly obtaining the benefits of Federal grants
for a period of one year. As reflected in the Notice, NSF proposed your debarment for
submitting a proposal to NSF that contained plagiarized material. In that Notice, NSF provided
you with thirty days to respond to the proposed debarment.

Over thirty days have elapsed and NSF has not received a response. Accordingly, you are
debarred until-2014.

Debarment precludes you from receiving Federal financial and non-financial assistance and
benefits under non-procurement Federal programs and activities unless an agency head or
authorized designee makes a determination to grant an exception in accordance with 2 CFR
180.135. Non-procurement transactions include grants, cooperative agreements, scholarships,
fellowships, contracts of assistance, loans, loan guarantees, subsidies, insurance, payments for
specified use, and donation agreements.

In addition, you are prohibited from receiving Federal contracts or approved subcontracts under
the Federal Acquisition Regulations at 48 CFR Subpart 9.4 for the period of this debarment. 2
CFR 180.925. During the debarment period, you may not have supervisory responsibility,
primary management, substantive control over, or critical influence on, a grant, contract, or
cooperative agreement with any agency of the Executive Branch of the Federal Government.
                                                                                             -,- 2 -

Lastly, please note that, in the Notice, NSF also took the following actions against you, which
continue to remain in effect:

   •   From the end of your debarment period                           17, you are required to
       submit certifications to NSF's Office of Inspector General that any proposals or reports
       you submit to NSF do not contain plagiarized, falsified, or fabricated materiaL

   •   From the end of your debarment period through-2017, you are required to
       submit assurances by a responsible official of your employer that any proposals or reports
       you submit to NSF do not contain plagiarized, falsified, or fabricated material. These
       assurances must be submitted to NSF's Office oflnspector General.

   •   You are prohibited from serving as an NSF reviewer, advisor, or consulta11t through
       -2016;and

   •   You are required to complete a comprehensive responsible conduct of research training
       course b y - 2 0 1 4 , and provide documentation of the program's content to the
       OIG. The instruction should be in an interactive format (e.g., an instructor-led course,
       workshop, etc.) and.should include a discussion of plagiarism and proper citation
       practices.

All certifications, assurances, and training document~tion should be submitted in writing to
NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington,
VA 22230.

Should you have any questions regarding the foregoing, please c o n t a c t - Assistant
General Counsel, at (703) 292-8060.




                                                    Sincerely,



                                                    Fae Korsmo
                                                    Senior Advisor
